                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             The Inspector General
                                                             Washington, D.C. 20230



May 1, 2013

The Honorable Frank R. Wolf
Chairman, Subcommittee on Commerce, Justice, Science,
 and Related Agencies
Committee on Appropriations
U.S. House of Representatives
Washington, DC 20515-6015

Dear Mr. C hairman:

This further responds to your correspondence of December 18, 20 12, in which you requested that
we address the current issues invo lving the Office of Special Co unsel (OSC) and the Commerce
Office oflnspector General (010). On January 7, 2013, we responded, indicating that our
actions to address mismanagement and misconduct in our Office of Investigations included an
ongoing personnel matter that we were not at liberty to repo tt about at the time. We are now
ab le to provide addi tio na l info rmation co nce rni ng thi s matter.

On April 30, 2013 , the U.S . Attorney for the Di strict of Maryland atmounced that two former
Commerce OIG special agents pleaded guilty to submitting fal se claims for re location expenses
and time and attendance fraud. The investigation was carried out by the FBI and my office. This
is another serio us conseq uence of the mi smanage ment we fou nd in our Office oflnvestigations,
w hich we detail ed in o ur January 7, 2013 respo nse.

The U.S. Attorney's press release is attached for your information. If you have any further
questions about this matter, please co ntact me at (202) 482-466 1.

Sincerely,



Todd J. Z inser

Attachment
                                                     U.S. Department of Justice


                                                    United States Attorney
                                                    District ofMaryland


Rod J. Rosenstein                                   36 South Charles Street                      4/0-209-4800
United States Attorney                              4'h Floor                           7TYITDD: 410-962-4462
                                                    Baltimore. Maryland 21201                    410-209-4885
Vickie E. LeDuc                                                                               FAX 410-962-3091
Public Information Ojjicer                                                              Vickie.LeDuc@usdoj.gov


April 30, 2013
FOR IMMEDIATE RELEASE                               Contact AUSA VICKIE E. LEDUC or
www .justice.gov/usao/md                            MARCIA MURPHY at (410) 209-4885


TWO FORMER SPECIAL AGENTS WITH DEPARTMENT OF COMMERCE OFFICE 

OF INSPECTOR GENERAL PLEAD GUILTY TO SUBMITTING FALSE CLAIMS FOR 

       RELOCATION EXPENSES AND TIME AND ATTENDANCE FRAUD 


        Greenbelt, Maryland -Two former Special Agents with the U.S. Department of
Commerce, Office of Inspector General, Rachel Ondrik, age 35, of Frederick, Maryland, and Kirk
Yamatani, age 38, of Ashburn, Virginia, pleaded guilty today to submitting false claims for
relocation expenses. Ondrik and Y amatani resigned their positions with the Department of
Commerce on March 29, 2013, as required by their plea agreements.

       The guilty plea was announced by United States Attorney for the District of Maryland Rod
J. Rosenstein; Special Agent in Charge Stephen E. Vogt of the Federal Bureau of Investigation;
and Todd Zinser, Inspector General for the U.S. Department of Commerce (DOC).

        "Today's announcement is the result of significant efforts by the U.S. Attorney's Office, the
FBI and my office to hold law enforcement agents accountable for years ofcriminal misconduct," said
Inspector General Todd Zinser of the U.S. Department of Commerce. "In addition to the fraud
perpetrated on the U.S. taxpayers, these now former employees also retaliated by carrying out a
destructive campaign of disparagement and false allegations against the Office of Inspector General
(OIG)." Mr. Zinser added, "I commend the U.S. Attorney's Office and the FBI for their diligent
efforts and perseverance in conducting this investigation."

        According to their plea agreements, in 2009, Ondrik and Yamatani, transferred from the
DOC OIG's Atlanta, Georgia office to Washington, D.C. Ondrik and Yamatani were authorized
relocation benefits, including a househunting trip, en route travel, and temporary quarters living
expenses. Emails between Ondrik and Y amatani show that both agents were aware of the rules
governing their relocations and reimbursements for related expenses, yet both attempted to secure
payment from the DOC in amounts significantly exceeding what was authorized and submitted
claims for relocation related trips they did not take.

        For example, Ondrik and Yamatani claimed $4,058.75 and $3,589, respectively for
househunting trips, when in fact, they did not make a househunting trip during the time claimed.
Ondrik and Yamatini each also falsely claimed more than $1,500 for travel to their new duty
station and falsely claimed reimbursement for temporary quarters living expenses in an amount
that was approximately three times what they were authorized. In all, Ondrik and Y amatani each
submitted at least three false vouchers seeking reimbursement for $39,563.25 and $36,305.57,
respectively. When Ondrik and Yamatani's claims for reimbursement were denied as being over
what the travel regulations allowed, Ondrik and Y amatani persisted in their claims. On several
occasions between 2009 and 2011, Ondrik and Y amatani reaffirmed the earlier false statements in
their vouchers and made false statements regarding the circumstances of their claims for
reimbursement.

       Between June 2009 and February 2011, Ondrik and Yamatani also committed time and
attendance fraud against DOC OIG, claiming to have worked hours that they did not actually work.
The loss to the government attributable to each defendant's conduct was approximately $14,000.

         The defendants and the government have agreed that if the Court accepts the plea
agreement Ondrik and Y amatani will each be sentenced to a term of probation and ordered to
pay a fine of$28,000. In addition, each defendant will be required to pay $14,000 in
restitution to the government. U.S. Magistrate Judge Charles B. Day has scheduled
sentencing for June 19,2013 at 2:30p.m.

        United States Attorney Rod J. Rosenstein praised the FBI and DOC OIG for their work in
the investigation. Mr. Rosenstein thanked Assistant U.S. Attorneys Adam K. Ake and Robert K.
Hur, who are prosecuting the case.
